HHS/OIG-Audit--"Improvements Needed in Financial Management Systems To Enhance Medicare Financial Reporting, (A-14-92-03015)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Improvements Needed In Financial Management Systems To Enhance Medicare
Financial Reporting," (A-14-92-03015)
April 26, 1994
Complete Text of Report is available in PDF format
(2.85 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the Health Care Financing Administration
(HCFA) has made improvements to its financial reporting by incorporating accrual
financial data into its general ledger. However, HCFA's financial management
systems still do not adequately support the amounts contained in Medicare financial
reports. Recommendations call for improvements that will allow HCFA's financial
management systems to meet the requirements of the Chief Financial Officers
Act of 1990 and Office of Management and Budget requirements.